                                    Limited Official Use




                  Insufficient Contractor Oversight Put Data and
                                 Equipment at Risk

                                         March 2004

                          Reference Number: 2004-20-063




The Treasury Inspector General for Tax Administration (TIGTA) has designated this
audit report as Limited Official Use (LOU) pursuant to Treasury Directive TD P-71-10,
Chapter III, Section 2, “Limited Official Use Information and Other Legends” of the
Department of Treasury Security Manual. Because this document has been designated
LOU, it may only be made available to those officials who have a need to know the
information contained within this report in the performance of their official duties. This
report must be safeguarded and protected from unauthorized disclosure; therefore, all
requests for disclosure of this report must be referred to the Disclosure Section within the
TIGTA’s Office of Chief Counsel.




                                     Limited Official Use
                                    Limited Official Use
             Insufficient Contractor Oversight Put Data and Equipment at Risk

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Gerald Horn, Audit Manager
Dan Ardeleano, Senior Auditor
William Lessa, Senior Auditor
Larry Reimer, Senior Auditor
Stasha Sue Smith, Senior Auditor
Charles Ekholm, Auditor




                                    Limited Official Use

                                                                                         Page 2
